@QCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 20-897

KYLE KOPITKE,
Petitioner,
Vv.
KAREN BRINSON BELL, Executive Director,
North Carolina State Board of Elections,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF JESSICA
BELCHER, ROBERT BELCHER, ELIZABETH CHRISTMAN, NORRIS CLARK, PHILIP
FUEHRER, PAT CUMMINGS KOMOROUS, THOMAS MCLAUGHLIN, RUSSELL VERNEY,
J. DAVID GILLESPIE, DARCY RICHARDSON, AND RICHARD WINGER, AS AMICI
CURIAE IN SUPPORT OF THE PETITION in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 1116 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 8th day of February, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Ah
f \ RENEE J, GOSS 9. ¢ bes dita / Ch L /

 

 

My Comm. Exp. September 5, 2023,

Notary Public Affiant 40642
